No. 20-107

 

 

IN THE

Supreme Court of the United States

CEDAR POINT NURSERY, ET AL.,
Petitioners,
v.

VICTORIA HASSID, IN HER OFFICIAL CAPACITY AS CHAIR OF THE AGRICULTURAL LABOR
RELATIONS BOARD, ET AL.,
Respondents.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

CERTIFICATE OF COMPLIANCE

Undersigned counsel for the Service Employees International Union, a
member of the Bar of this Court, certifies pursuant to Supreme Court Rule 33.1(h)
that the BRIEF FOR THE SERVICE EMPLOYEES INTERNATIONAL UNION AS
AMICUS CURIAE IN SUPPORT OF RESPONDENTS in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this Brief filed herewith complies with the word limitations of Rule 33.1(g)(xii).
Excluding the portions of the Brief exempted by Rule 33.1(d), the Brief contains 7,121
words.

Executed on February 12, 2021.

LEON DAYAN

(Counsel of Record)
BREDHOFF & KaIsER, P.L.L.C.
805 15th Street N.W.
Suite 1000
Washington, DC 20005
202.842.2600
ldayan@bredhoff.com

Counsel for Amicus Curiae
Service Employees International Union
